Department of Homeland Security
   Ofﬁce of Inspector General

              Review of Management Agreements 

            Developed for DHS' Primary Data Center 





OIG-10-56                                       February 2010
                                                                      Office ofInspector General

                                                                      u.s.
                                                                         Department of Homeland Security
                                                                      Washington, DC 20528




                                                                  ~   Homeland

                                 FEB	 18 Z010
                                                                      Security


MEMORANDUM FOR:	                   Richard Spires
                                   Chie:( Information Officer
                                   ~i(.~
FROM:	                             Kichard L. Skinner
                                   Inspector General

SUBJECT:	                          Final Letter Report: Review ofManagement Agreements
                                   Developed for DHS' Primary Data Center (OIG-10-56)

We audited the efficiency of the Department of Homeland Security's (DHS) management
agreements to establish a primary data center at the Stennis Space Center in Mississippi.
The department has agreements with the U.S. Navy to establish and maintain the DHS
primary data center. We determined that the associated interagency agreements for this
effort are missing key elements. Additionally, the department's technical representatives
have not reviewed invoices associated with $160 million in expenditures.

The audit included a review of DHS policies and procedures, interagency agreements, the
memorandum of agreement, and prior audit reports. We are recommending that DHS:

    •  Update its interagency agreements to include (a) the location of the building;
       (b) DHS' percentage of space, power, and utilities; and (c) the methodology for
       the allocation of costs.
    •	 Review invoices and supporting documentation for fund transfers to ensure that
       funds were appropriately used.

Background

In April 2009, we reported on DHS' efforts to improve its disaster recovery planning for
information systems. 1 We identified technical and managerial concerns that might hinder
the ability of DHS' primary data center to perform mission-essential functions. As a
result of that audit, we initiated a review to determine whether the management
agreements among the various stakeholders at the Stennis Space Center assist or hinder
DRS' efforts to establish a primary data center.


1 DHS' Progress   in Disaster Recovery Planning for Information Systems, OIG-09-60, April 2009.


                                                  Page 1
We reviewed actions DHS had taken to select the location of its primary data center. In
2004, DHS staff visited the Stennis Space Center in Mississippi several times to survey
proposed buildings that could be used for the data center. In November 2004, the DHS
Chief Information Officer committed $5 million to establish data center services at the
Stennis Space Center. However, the buildings that DHS staff had surveyed were not
available, and the U.S. Navy provided DHS another building at the Stennis Space Center.
The new building was a former munitions manufacturing facility that needed extensive
renovations. This building is on land permitted to the U.S. Army and operated by the
U.S. Navy. DHS is one of several tenants in the U.S. Navy building.

We reviewed the interagency agreements between DHS and the U.S. Navy. We also
reviewed the process DHS uses to verify that goods and services received for the primary
data center are approved before payments are made.

Interagency Agreements Do Not Contain Key Elements

Since 2005, the department has obligated more than $160 million in interagency
agreements with the U.S. Navy to convert a former munitions manufacturing facility at
the Stennis Space Center in Mississippi into a data center. However, the interagency
agreements between DHS and the U.S. Navy do not contain key elements essential to
ensure that the facility can continue to operate as DHS’ primary data center.

According to Management Directive 125-02, Interagency Agreements,

       “Each Interagency Agreement identifies the supplies and services to be provided
       and indicates the fee charged by the Servicing Agency. The description of
       supplies or services must be specific, definite, and clear in order to support a
       binding agreement that will be recorded as an obligation. Further, the Interagency
       Agreement must establish a ceiling amount limiting the Requesting Agency's
       financial obligation.”

Key elements that are missing from these agreements include DHS’ allotted floor space,
the amount of power and utilities provided, and DHS’ percentage of shared costs.
Without these items in the interagency agreements, DHS cannot be assured that it can
continue to house its primary data center in the current location, or that DHS is
reimbursing the U.S. Navy only for expenses directly related to the primary data center.

In November 2004, DHS committed to placing its primary data center at the Stennis
Space Center without establishing an agreement with the U.S. Navy about the specific
building that DHS would occupy. After DHS committed $5 million to use the Stennis
Space Center, DHS was provided another building that it had not previously reviewed.
According to the U.S. Navy, DHS spent $64.1 million to renovate the replacement
building.

In September 2008, DHS and the U.S. Navy signed a formal memorandum of agreement
for the operation and maintenance of this renovated facility. This document and the



                                          Page 2
original interagency agreements specify what services the U.S. Navy will provide.
However, these documents do not specify the amount of floor space that DHS will
control or DHS’ percentage of shared operating costs.

Our review of DHS’ payments indicates that the department is paying more than its fair
share of costs for this facility. The DHS primary data center is located in a multitenant
building. This building is operated by the U.S. Navy on land that has been permitted to
the U.S. Army. The U.S. Army is charging the U.S. Navy $549,332 for the use of
250,973 square feet of office space on 64 acres of land at the Stennis Space Center.
According to the U.S. Navy, DHS is occupying approximately 81%, or 61,206 square
feet, of the floor space in one of its shared buildings. However, the U.S. Navy is
charging DHS $444,959, or approximately 81% of the U.S. Navy’s $549,332 total cost,
instead of charging DHS based on the percentage of space DHS is using. We discussed
this matter with DHS officials, who agreed that DHS may be paying the U.S. Navy too
much for this space.

Without documented agreements identifying the fees to be charged, as well as the
specific supplies and services to be provided, DHS cannot be assured that it is operating
its primary data center as cost-effectively as possible.

DHS Is Not Reviewing Invoices for Its Primary Data Center

DHS technical representatives have not reviewed invoices and other documents that
detail the expenditures associated with the $160 million that DHS has paid the U.S. Navy
for its primary data center since January 2005. Without reviews of supporting
documentation, senior DHS management cannot be assured that department funds are
being used to acquire the goods and services outlined in the interagency agreements in a
cost-effective manner and for authorized purposes.

The U.S. Navy is using the Intra-Governmental Payment and Collection (IPAC) System
to obtain DHS funds designated for DHS’ primary data center. 2 However, the U.S. Navy
did not provide supporting documentation or invoices for these transfers before receiving
the funds. In addition, DHS technical representatives did not request supporting
documentation for the transactions and did not notify the DHS contracting officers, fund
transfer officials, or budget officers that supporting documentation was not provided.

According to an U.S. Navy official, the IPAC System was used to obtain DHS funds
made available through the interagency agreements for capital improvements. For
example, as discussed above, DHS funds were used for renovating a munitions
manufacturing facility and for rent. Additionally, according to a U.S. Navy official, DHS
funds were used for rent; salaries; and the purchase of nonexpendable property such as air
conditioning units (chillers), uninterruptible power supplies, fuel tanks, electrical power
supply elements, and five of six emergency generators. However, DHS was not provided
the invoices or documentation supporting charges for these goods and services.

2
 The IPAC System’s primary purpose is to provide a standardized interagency fund transfer mechanism for
Federal Program Agencies.


                                                Page 3
According to Management Directive 125-02, Interagency Agreements,

       “The Program Manager is ultimately responsible for ensuring that program funds
       are spent in a manner that results in planned outcomes (i.e., that all Interagency
       Agreements contain clearly defined requirements, and performance measures and
       monitoring plans to the maximum extent practicable). Further, DHS Program
       Offices must ensure that adequate documentation is maintained with respect to the
       results achieved under each Interagency Agreement.”

According to DHS Directive 125-02-001, Instruction Guide on Interagency Agreements,
the following activities are to occur before the close-out phase of an interagency
agreement:

       “Prior to close-out, reconciliation of the funds and acceptance of performance
       must occur (Requesting Agency Program Manager in conjunction with the
       appropriate Servicing Agency Point of Contact).”

Without supporting documentation, DHS cannot be assured that IPAC transfers to the
U.S. Navy related to the DHS primary data center were for authorized goods or services
and were appropriately used for capital improvements, rent, salaries, and nonexpendable
property.

Recommendations

We recommend that the DHS Chief Information Officer (CIO) direct DHS technical
representatives and contracting officers to:

Recommendation #1: Update interagency agreements between the U.S. Navy and DHS
to include (a) the location of DHS’ data center building; (b) DHS’ percentage of space,
power, and utilities; and (c) the methodology for determining DHS’ allocation of costs
for space at the Stennis Space Center.

Recommendation #2: Obtain and review invoices and supporting documentation for
U.S. Navy’s IPAC transfers related to the DHS primary data center to ensure that funds
were appropriately used for designated goods and services.




                                          Page 4
Management Comments and Analysis

We obtained written comments on a draft of this report from the DHS CIO. In the
comments, the CIO indicates that the report contains several inaccuracies. Specifically,
the CIO states that two specific interagency agreements contained power and floor space
requirements. We disagree. Neither agreement specifies the amount of floor space or
power that will be dedicated for DHS’ use. Additionally, the other 29 agreements we
reviewed did not contain the amount of floor space and power that would be dedicated to
DHS’ use.

Further, the CIO indicated that our report appeared to confuse raised floor space with
other types of space. We modified the text in this section of the report to emphasize our
concern that DHS was paying 81% of the U.S. Navy’s total costs, including costs for
buildings not occupied by DHS.

Finally, the CIO asserted that onsite surveys and visual inspections were sufficient
actions to ensure that program funds were properly spent. However, it is our opinion that
these actions alone did not provide sufficient oversight. These actions must be supported
by verifying that adequate documentation exists for costs charged to DHS for
construction, supplies, and personnel.

The CIO also did not concur with our second recommendation. Specifically, the CIO
noted that both DHS and the Office of Inspector General auditors sought invoices from
the U.S. Navy without success. However, we disagree that DHS should have accepted
this apparent lack of cooperation from the U.S. Navy. Staff from the DHS Office of the
CIO should have notified senior DHS officials of this problem. When informed of the
problem, DHS officials should have negotiated with the U.S. Navy and the General
Services Administration for access to the relevant documents.




                                          Page 5
Appendix A
Purpose, Scope, and Methodology

                        This audit is a follow-up audit to our report on DHS’ Progress in
                        Disaster Recovery Planning for Information Systems (OIG-09-60).
                        The previous report concerned DHS’ disaster recovery planning
                        and its two new data centers. This report focuses on the DHS
                        Management Directorate’s efforts to establish one of those data
                        centers, DHS’ primary data center.

                        The objective of our audit was to determine whether the
                        management/ownership agreements among the various
                        stakeholders assist or hinder DHS’ efforts to establish a primary
                        data center. We reviewed DHS policies and procedures,
                        interagency agreements, memorandum of agreement, statements of
                        work, and prior audit reports. On-site inspections and interviews
                        of key personnel performed for the previous report were also used
                        to support this effort.

                        We conducted fieldwork at DHS Management Directorate
                        facilities and organizational elements in the Washington DC,
                        metropolitan area. We also requested information from the
                        U.S. Navy, the U.S. Army, and the National Aeronautics and
                        Space Administration. While these organizations provided us with
                        most of the data we requested, the U.S. Navy did not provide
                        invoices related to work performed at DHS’ primary data center.
                        We conducted this audit between April and October 2009.

                        We provided DHS staff with briefings and presentations
                        concerning the results of fieldwork and the information
                        summarized in this report. We conducted the audit according to
                        generally accepted government auditing standards. Those
                        standards require that we plan and perform the audit to obtain
                        sufficient, appropriate evidence to provide a reasonable basis for
                        our findings and conclusions based on our audit objectives. We
                        believe that the evidence obtained provides a reasonable basis for
                        our findings and conclusions based on our audit objectives.

                        We appreciate the efforts of DHS management and staff to provide
                        the information and access necessary to accomplish this audit. The
                        principal Office of Inspector General points of contact for the audit
                        are Frank Deffer, Assistant Inspector General for Information
                        Technology Audits, (202) 254-4100, and Sharon Huiswoud,
                        Director, Information Systems Division, (202) 254-5451. Major
                        contributors to the audit are identified in Appendix C.




                                            Page 6
Appendix B
Management Comments to the Draft Report




                                                                          I   .s. I)rp.rlmrn' ofllomrlud S«urill
                                                                          \\ """nglon. DC 2OS28




                                                               -7~'       Homeland
                                                               \~'        Security

            MEMORANDUM FOR:               Richard L. Skinner             -,        ~
                                          JnspcctorGen~ra~v
            FROM:                         Richard Spires
                                          Chicf Infonnatio 0      ccr

            SUBJECT:                       Filial Ldler Repor/: Rel'iew of MWIUj.!emellf Agreellumls
                                           Dewdopedfor DHS' Primary [)(I/(I Celller Re~"[JlJl1se


            Please find our comments on the subject report. In addition to responding to thc
            recommendations we have addressed severnl inaccuracies that \\ere noted in the report.

            Page 2, fifth paragr:lph ("Key clements ... ") - DHS' requirements for power and floor
            space were specified in Interagency Agrecmcnts IISHQI'A-OS-X-OI066 and I-lSl-IQPA­
            OS-X-Ol066,1'00002. The current Memorandum of Agreement (MOA) with the
            Commandcr Naval Metcorology and Oceanography Command (CNMOC) specifies that
            annual budget for facility services will be proposed and mutually discussed. Interagency
            agreements for recurring facility costs prior and subsequent to this MOA have specified
            services and COSts.

            ()age 3, first full paragrallh ("Our rc\'iew.....) - The report appears to confuse raised
            floor spacc with other types of space. DHS uses a number of buildings and types of
            space within the fonner Mississippi Anny Ammunition Plant (MSAAP). Raised floor
            space, as the premium facility commodity. is used by CNMOC as the dClemlining metric
            for costs cited in this pllrllgraph. DHS currently has exclusive use of 81 % of the raised
            floor space withintht: MSSAP.

            I'age 4, initial refcrence to Management Directivc 125-02 - DHS personnel undertook
            repeated on-site surveys of the facility during the course construction, perfomling II
            thorough visual inspection of assets such as chillers. fuel tanks. power supply clements
            and emergency generators. Such inspection represents full altention to the MD 125-02
            requirement to ensure program funds arc properly spent.

            Recommendation #1: Updale illlerogellCY agreemenl.\· between Ihe U.S. Navy and D/-IS
            10 il/dllde: (a) Ihe loca/ioll ofDHS d(l/a eenler (bui/dinJ.U. (b) DIfS' pl!rcenta?e 0/space,




                                                 Page 7 

(lower, (lnd uli/hies, alld (c) Ih" melhodologyfor   delerminin~ DHS'   allocation ofcosts
for spac/! alllll! SI/!lInis Space Cenler.

OCIO Concurs with caveat· Facility ownership is expected to transfer from CNMOC
to the NASA Stennis Space Center (SSC) in April 2010. DHS and SSC are presently
working to establish an agreement for specific terms and conditions. DI-IS plans to
incorporate this recommendation into the new agreclllclll with SSe.

Recommelldaliflll #2: Oblain (1/1d rn'iew invoices and supporling doel/mentationfor
u.s. Navy's IPAC lramfers related 10 the DNS primary dl/Ill cenler to ensure thatfimds
were appropriately usedfor de,rig/la/('ll Wwd\' (J/u! sen'ices.

OCIO Non-concurs - OilS has sought invoices from Navy without success. The Dl-IS
Office of Inspector General also sought invoices without success. It is not a common
practice for invoices to be provided in the kinds ofintra-govemmental relationships such
as that DHS has for the data center at sse.   COnlfacting functions related to facility
services arc pcrfomlcd by the Navy and the General Services Administration (GSA). thus
access to invoices is controlled by CNMOC Contracting Officer Rcprcsclllativcs and
GSA Contracting Officers. These p<1rtics h(\ve direct responsibility for vendor oversight
and invoice review, Funher, these panics have treated invoice infomlation as subject to
privity. As DHS works with sse to establish a new agreement. eITons will be made to
impose a requirement lor access to vendor invoices, but results cannot be assured. DHS
has and will continue to mitigate this risk through direct on-site observation of rendered
services and capabilities.




                                    Page 8 

Appendix C
Major Contributors to This Report



                   Sharon Huiswoud, Director, Department of Homeland Security,
                   Information Technology Audits

                   Kevin Burke, Audit Manager, Department of Homeland Security,
                   Information Technology Audits

                   Domingo Alvarez, Senior Auditor, Department of Homeland
                   Security, Information Technology Audits

                   Matthew Worner, Senior Auditor, Department of Homeland
                   Security, Information Technology Audits

                   Philip Greene, Referencer




                                      Page 9
Appendix D
Report Distribution

                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff for Policy
                      Chief of Staff for Operations
                      Deputy Chiefs of Staff
                      General Counsel
                      Executive Secretary
                      Under Secretary for Management
                      Director, GAO/OIG Liaison Office
                      Assistant Secretary for Policy
                      Assistant Secretary for Legislative Affairs
                      Assistant Secretary for Public Affairs
                      Office of Management, Audit Liaison
                      Chief Information Officer, DHS
                      Deputy Chief Information Officer, DHS
                      Chief Information Security Officer, DHS
                      Director, Compliance and Oversight
                      Deputy Director, Compliance and Oversight
                      DHS Chief Information Officer, Audit Liaison
                      DHS Chief Information Security Officer, Audit Liaison

                      Office of Management and Budget

                      Chief, Homeland Security Branch DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as
                      appropriate




                                        Page 10
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4100,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
